BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that the original
and 2 copies of the foregoing Application for an
Extension of Time to File a Petition for Writ of
Certiorari in Jeffrey Fairbanks v. State of Indiana,
were sent via Next Day Service to the U.S. Supreme
Court, and 1 copy was sent via Next Day Service and
e-mail to the following parties listed below, this 7th
day of June, 2019:
Curtis T. Hill
Indiana Attorney General
Laura Renee Anderson
302 West Washington Street
IGCS-5th Floor
Indianapolis, IN 46204
(317) 232-6201
efile@atg.in. gov
laura.anderson@atg.in.gov
Counsel for Respondent

Alexandra C. Siskopoulos
Counsel for Applicant
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Applicant

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER,

J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 7, 2019.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

1 co/c.1

[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

